September 29, 2006

MEMORANDUM FOR:             EMILY STOVER DeROCCO
                            Assistant Secretary for Employment
                             and Training



FROM:                       ELLIOT P. LEWIS
                            Assistant Inspector General
                             for Audit

SUBJECT:                    Individuals Received Unemployment Benefits
                            in Louisiana While Receiving Public Service
                            Employment Wages in Louisiana
                            Management Letter No. 06-06-007-03-315

INTRODUCTION

Normally, a Management Letter is provided to be read in conjunction with an
accompanying audit report. However, due to the proactive nature of our current
work related to Hurricane Katrina, we will be issuing Management Letters to
inform the Department, in this case, the Employment and Training Administration
(ETA), of issues/problems we believe should be disclosed to help the
Department’s programs operate efficiently and effectively while reducing the
possibility of fraud, waste, and abuse.

This Management Letter is an interim reporting mechanism and should be read
with the understanding that only after the information in this Management Letter
is evaluated/investigated by the OIG’s Offices of Audit and Labor Racketeering
and Fraud Investigations (OLRFI), and the Louisiana Department of Labor can a
determination be made as to the legitimacy of the unemployment claims
discussed herein.

BACKGROUND

On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
Alabama coasts, resulting in a national disaster. A national emergency was
declared, making disaster unemployment assistance (DUA) available to residents
of the affected areas who lost their jobs, or were unable to return to their jobs as
a result of Hurricane Katrina, if they did not qualify for State unemployment
compensation (UC). Additionally, on September 23, 2005, Hurricane Rita hit the
Texas and Louisiana coasts, resulting in another national emergency declaration
on September 24, 2005.

UC provides benefits to eligible workers who are unemployed through no fault of
their own and meet eligibility requirements established by their State. UC
benefits are state funded. The purpose of the DUA program is to provide
unemployment assistance to individuals who become unemployed or cannot
commence employment as a direct result of a major disaster, but are not covered
under the Federal or state UC programs. DUA is available to individuals for
weeks of unemployment beginning after the date the major disaster began and
for up to 39 weeks after the major disaster was declared by the President, as
long as their unemployment continues to be a result of the major disaster.

In response to Hurricane Katrina, on September 3, 2005, the U.S. Department of
Labor announced a National Emergency Grant (NEG) of up to $62.1 million to
provide approximately 10,000 temporary public service employment (PSE) jobs
for dislocated workers to help in recovery and clean-up efforts underway in
Louisiana. The NEG was later modified to allow that the temporary PSE jobs
could also be used for temporary jobs in the public sector that were not directly
related to the disaster and to provide the same services to individuals affected by
Hurricane Rita.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to determine if:

      1. Individuals received unemployment benefits in Louisiana for the same
         weeks they received wages while enrolled in the State’s NEG PSE
         program.

      2. The State’s Management Information System (MIS) properly reflected
         the enrollment status of its PSE participants.

We obtained the State’s Hurricanes Katrina- and Rita-related UC and DUA
databases for the weeks ending September 10, 2005, through December 10,
2005. We also obtained a State data file that identified 5,094 individuals enrolled
in NEG PSE activities between September 10, 2005, and January 27, 2006.

We compared the two data bases and identified 2,0871 individuals receiving DUA
or UC payments who were also being reported as working under NEG PSE
projects in the State on or after the date they began receiving DUA or UC
payments. These 2,087 participants included 1,291 participants who reported
they were unemployed the week of November 19, 2005--the last week Louisiana


1
 Subsequent data mining efforts increased this number to 2,098 claimants; however the
additional 11 files were not included in the universe from which the sample covered in this report
was selected.

                                                 2
automatically paid benefits without claimants having to weekly certify their
continuing eligibility--and subsequent weeks.

Four2 of 17 local workforce investment areas (LWIAs) employed 699, or 54
percent, of these 1,291 participants. We randomly selected a sample of 30 PSE
participants from each of these four LWIAs in order to concentrate on participants
who would have had to certify unemployment for weeks after November 19,
2005. We restricted our sampling to those participants who received benefits
after the week ending November 19, 2005, because, even though the other
participants may have been overpaid, these overpayments may have occurred
because of the State’s automatic pay system.

We obtained updated benefit payment records for the sampled claimants through
the week ending January 28, 2006. Consequently, our audit period was
September 10, 2005, through January 28, 2006. We compared these records to
PSE payroll records obtained from the LWIAs, or their contractors, through the
week ending January 28, 2006, (the latest week for which we had benefit
payment records). We then computed questionable overpayments, separated
into overpayments through the week ending November 19, 2005, and after the
week ending November 19, 2005.

We will be providing, under separate cover, our data mining results for all 2,098
participants (minus the 120 sampled) to the State of Louisiana for its review. We
have also provided to the State the details of the results of our audit of the 120
randomly selected cases.

In addition, we provided to the OIG’s OLRFI the details for those claimants from
our sample who received both PSE wages and unemployment benefits for weeks
after November 19, 2005.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the Federal Government’s examination of relief
efforts in the aftermath of Hurricanes Katrina and Rita. When we issue this
report in final, we will forward a copy to the PCIE Homeland Security Working
Group, which is coordinating Inspectors General reviews of this important
subject.

RESULTS

Louisiana paid 1073 individuals UC or DUA for the same weeks it reported
these individuals were enrolled in PSE.

From a sample of 120 of the 699 claimants reported as employed by the four
selected LWIAs, we determined:

2
  The four LWIAs are: City of Shreveport, East Baton Rouge Parish, Lafayette Parish, and
Second Planning District Consortium.
3
  One of these claimants was overpaid weeks of both UC and DUA; consequently, the number of
participants receiving UC (70) and DUA (38) adds to 108, not 107.
                                             3
   •   The State overpaid $105,170 (38 DUA, $24,500; 70 UC, $80,670) to 107
       of the 120 claimants (89 percent), including $18,617 after the State
       eliminated its automatic pay system after the week ending November 19,
       2005.

   •   The State still showed 115 of these 120 claimants as enrolled in the PSE
       program even though:
          o 13 (11 percent) never worked in the program, and
          o 63 (55 percent) no longer work in the program.

Louisiana’s MIS did not accurately reflect PSE participants’ status.

The State’s MIS data files we were provided identified that only 5 of the 120
sampled participants’ PSE program participation had ended. For the 115
participants the State’s MIS showed as still enrolled in PSE, 76 participants (66
percent) were not enrolled:

   •   13 claimants never worked under the PSE program.
   •   63 claimants were no longer working under the PSE program. These
       claimants received $65,107 in benefits (19 DUA,- $8,722; 44 UC -
       $56,385) after they terminated from the PSE program.

We have not questioned as overpayments any of the DUA or UC payments
made to these 63 claimants after they left PSE employment. However, if any of
these claimants accepted other employment, they would be ineligible for DUA or
UC benefits while working. Although a UC claimant could restart an existing UC
claim if the claimant became subsequently unemployed for just cause, a DUA
claimant could not restart the DUA claim because the subsequent unemployment
would not be attributable to the disaster.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

   •   Direct the State to:

          1. Establish and collect the 38 overpayments identified in the DUA
             sampled files.

          2. Determine any additional overpayments through the latest week
             DUA payments were made to these claimants.

          3. Adjudicate the 19 DUA claims for which claimants terminated from
             PSE, but continued to draw DUA benefits, and establish and collect
             the overpayments.



                                         4
          4. Update the State’s NEG participant data to properly reflect PSE
             participants’ termination status, where necessary, based on the
             OIG’s and LWIAs’ audits (see recommendation 7).

   •   Work with the State to:

          5. Establish and collect the 70 overpayments identified in the UC
             sampled files.

          6. Determine any additional overpayments through the latest week UC
             payments were made to these claimants.

          7. Have the LWIAs perform payroll audits for their NEG PSE
             programs based on the computer data file details we will provide on
             the universe (2,098 – 120) of potentially overpaid PSE participants.

          8. Establish the overpayments identified by the LWIAs’ payroll audits.

          9. Adjudicate the 44 UC claims for which claimants terminated from
             PSE but continued to draw UC benefits and establish and collect.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that ETA is monitoring the State’s actions as it
establishes and collects overpayments resulting from the improperly paid
benefits. ETA’s Regional Office will continue to work with the State in this
regard, as well as in determining whether any other overpayments were made;
and ensuring NEG payroll audits are conducted, the MIS is updated, and other
recommendations are addressed, as appropriate. The Assistant Secretary’s
response is included in its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendations
resolved. They will be closed upon receipt of documentation to support the
State’s actions to set up and recover all overpayments, conduct payroll audits,
and update the MIS, as described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.




                                       5
Attachment

cc:   Steven Law
      Deputy Secretary

      Phyllis Newby
      ETA Audit Liaison




                          6
7
